Department of Homeland Security
   Ofﬁce of Inspector General

                  FEMA’s Implementation of 

             Recommendations from Top Officials 4 





OIG-10-121                                    September 2010
                                                              Office ofInspector Gel/eraf

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland
                                                              Security
                         September 28, 2010
                                          Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the extent to which the Federal Emergency Management Agency
incorporated corrective actions from Top Officials 4 into National Level Exercise 2009.
It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                C-UQVV\\­
                                  Carlton I. Mann
                                      Assistant Inspector General for Inspections




                                              3
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Review ................................................................................................................4 


     All TOPOFF 4 Corrective Actions Were Not Relevant for NLE 2009.........................4 


     Barriers Exist That Hinder the Effectiveness of a Corrective Action Program.............8 

     Recommendation ...........................................................................................................9 

     Management Comments and OIG Analysis ................................................................10 


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................11 

     Appendix B:           Management Comments to the Draft Report .......................................12 

     Appendix C:           Major Contributors to this Report........................................................14 

     Appendix D:           Report Distribution ..............................................................................15 


Abbreviations
     AAR                   After Action Report 

     CAP                   Corrective Action Program

     DHS                   Department of Homeland Security 

     ESC                   Executive Steering Committee 

     FEMA                  Federal Emergency Management Agency 

     HSC                   Homeland Security Council 

     HSPD                  Homeland Security Presidential Directive 

     NED                   National Exercise Division 

     NEP                   National Exercise Program

     NLE                   National Level Exercise

     NPD                   National Preparedness Directorate 

     POC                   Point of Contact 

     Sub-PCC               Sub-Policy Coordination Committee        

     TOPOFF                Top Officials      

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                National level exercises, formerly designated as Top Officials exercises,
                are designed to reinforce the nation’s capability to prepare for, prevent,
                respond to, and recover from large-scale terrorist attacks or natural
                disasters. These exercises test high-level government officials’ response
                to simulated attacks and disasters and identify corrective actions resulting
                from problems discovered during these exercises. Our review examined
                how the Federal Emergency Management Agency, which coordinates the
                federal government's role in disaster-related activities, incorporated
                corrective actions identified in Top Officials 4 into National Level
                Exercise 2009.

                The Federal Emergency Management Agency developed a centralized
                Corrective Action Program to address deficiencies identified during
                national level exercises. The agency documented 54 corrective actions in
                Top Officials 4, ten of which were relevant to and incorporated into the
                planning and execution of National Level Exercise 2009.

                While the Federal Emergency Management Agency is responsible for
                inputting information into a corrective action database, tracking these
                corrective actions rests exclusively with participating federal entities. This
                barrier hinders the effectiveness of the Corrective Action Program as the
                Federal Emergency Management Agency has no enforcement authority to
                direct compliance with corrective action implementation.

                We are recommending that the Federal Emergency Management Agency,
                in collaboration with the Exercise and Evaluation Sub-Interagency Policy
                Committee and the National Exercise Program Executive Steering
                Committee, develop reporting regulations for oversight of corrective
                action implementation. The Federal Emergency Management Agency
                agreed with the importance of an oversight system and collaborative
                efforts to include the Exercise and Evaluation Sub-Interagency Policy
                Committee. As an alternative to our recommendation for corrective action
                oversight through federal regulation, we accepted their suggestion to
                develop a mechanism to strengthen corrective action progress in
                collaboration with the White House.
                .



                FEMA’s Implementation of Recommendations from Top Officials 4

                                       Page 1
Background
                             House Report 110-862 requires that we review changes made by
                             the Department of Homeland Security (DHS) as a result of
                             problems identified through Top Officials (TOPOFF) 4, and make
                             recommendations for any further improvements needed.1 To
                             satisfy this requirement, we examined the extent to which
                             corrective actions identified in TOPOFF 4 were incorporated into
                             the planning and execution of DHS’ National Level Exercise
                             (NLE) 2009.

                             The Homeland Security Act (HSA) of 2002 assigned DHS primary
                             responsibility to prepare for and sustain the United States’
                             capability to reduce vulnerabilities associated with acts of
                             terrorism. The DHS Secretary is responsible for coordinating
                             federal operations to prepare for, respond to and recover from
                             terrorist attacks, major disasters, and other emergencies.

                             In February 2003, the President issued Homeland Security
                             Presidential Directive (HSPD) 5, Management of Domestic
                             Incidents, which identifies steps for improved coordination among
                             all levels of government in response to terrorist attacks, major
                             disasters and other emergencies. In December 2003, the President
                             issued HSPD 8, National Preparedness, which describes how
                             federal departments and agencies will prepare for such responses.
                             In coordination with other federal departments, agencies, state and
                             local governments, and private sector entities, HSPD 8 directed
                             DHS to establish a national program to conduct homeland security
                             preparedness-related exercises that could be evaluated to determine
                             the country’s ability to handle man-made or natural disasters.

                             The Executive Steering Committee (ESC) coordinates
                             departmental and agency roles and responsibilities, and reports to
                             the Exercise and Evaluation Sub-Interagency Policy Committee
                             (Sub-IPC). The Sub-IPC recommends exercise priorities, goals,
                             objectives, schedules, and corrective action issues to the Homeland
                             Security Council (HSC) Deputies Committee, which is composed
                             of deputy cabinet secretaries of the relevant federal agencies.

                             Within DHS, the Federal Emergency Management Agency
                             (FEMA) coordinates the federal government's role in all domestic
                             disaster- related activities. In April 2007, FEMA established the

1
    Top Officials exercises were designated as National Level Exercises beginning in Fiscal Year 2009.



                       FEMA’s Implementation of Recommendations from Top Officials 4 


                                                    Page 2
                                              

                           National Preparedness Directorate (NPD) to oversee the
                           coordination and development of strategies necessary to prepare
                           for terrorist incidents and natural disasters. As part of this mission,
                           NPD provides policy and planning guidance that builds prevention,
                           protection, response, and recovery capabilities among all levels of
                           federal, state and local governments.2

                           Within NPD, the National Exercise Division (NED) established the
                           National Exercise Program (NEP) to improve the delivery and
                           organization involved with planning for, developing and executing
                           preparedness-related national level exercises for the federal
                           government. NEP is the primary tool for assessing the country’s
                           ability to prevent, protect, respond to and recover from
                           catastrophic events. National level exercises are conducted to test
                           and identify planning and resource gaps in existing strategies,
                           policies and procedures.

                           A White House memorandum entitled, “National Exercise
                           Program,” identified by many observers as the NEP charter,
                           requires a corrective action process to ensure lessons from
                           exercises are either sustained or improved as appropriate. To
                           facilitate a corrective action process, FEMA developed a
                           Corrective Action Program (CAP) to address preparedness
                           deficiencies identified during exercises, policy discussions, and
                           real-world events and refers issues to departments and agencies for
                           priority and remedial action. Specifically, the CAP identifies,
                           assigns, and tracks corrective actions. FEMA’s NPD serves as the
                           responsible agent for the CAP, and provides administrative and
                           technical support to other federal departments and agencies.

                           National level exercises have four homeland security mission
                           areas: prevent, protect, respond, and recover.

                           •	 Prevent Mission: Actions taken to avoid an incident or
                              intervene to stop an incident from occurring.
                           •	 Protect Mission: Reduce the likelihood of attack on assets or
                              systems and limit the impact should an attack occur.
                           •	 Respond Mission: Implement immediate actions to save lives,
                              protect property, and meet basic human needs.


2
  After TOPOFF 4 and NLE 09 exercises, a fifth mission area – mitigation – was added to the homeland
security mission areas. Mitigation is the effort to reduce loss of life and property by lessening the impact of
disasters.




                      FEMA’s Implementation of Recommendations from Top Officials 4 


                                                    Page 3

                  •	 Recover Mission: Develop, coordinate, and execute service-
                     and site-restoration plans and reconstitute government
                     operations and services through individual, private-sector,
                     nongovernmental, and public assistance programs.

                  National level exercises are categorized into four tiers. These tiers
                  reflect the priority for federal participation, with Tier I as the
                  highest and Tier IV as the lowest, and are assigned based on their
                  alignment with federal government-wide strategic and policy
                  priorities.

                  As stated in the NEP Implementation Plan, a national level
                  exercise is the single annual operations-based NEP Tier I exercise
                  focused on White House-directed, U.S. government-wide strategy
                  and policy-related issues that require the participation of all
                  appropriate department and agency principals. There are 5 NEP
                  Tier I exercises annually. TOPOFF 4 and NLE 2009 were both
                  Tier I exercises. Tier II exercises are focused on strategy and
                  policy issues supported by all appropriate departments and
                  agencies. Tier III exercises focus on operational, tactical, or
                  organization-specific objectives not requiring broad interagency
                  headquarters-level involvement to achieve objectives. Tier IV
                  exercises include state, territorial, local, or tribal governments and
                  private sector entities as the primary training audience or subject of
                  evaluation.


Results of Review
     All TOPOFF 4 Corrective Actions Were Not Relevant for NLE
     2009
          As part of the National Exercise Program (NEP), emergency preparedness
          exercises attempt to build an integrated, interagency federal, state,
          territorial, local, and private sector capability to prevent terrorist attacks,
          and respond to and recover from any terrorist attack or major disaster.
          The first in a series of national preparedness exercises, TOPOFF 2000,
          simulated biological attacks in Colorado and New Hampshire. TOPOFF 2
          simulated a radiological dispersal device detonation and an outbreak of
          pneumonic plague. The exercise included pre-exercise intelligence play, a
          cyber-attack, and credible terrorism threats against other locations.
          TOPOFF 3 was a large-scale, multipoint terrorist attack using biological
          and chemical weapons. TOPOFF 4 simulated a radiological dispersal
          device detonation near a power plant.


             FEMA’s Implementation of Recommendations from Top Officials 4 


                                        Page 4

During the planning and conduct of NLE 2009, interagency planners were
also engaged in planning NLE 2010, NLE 2011, and multiple Tier I and
Tier II exercises. With these multiple events and associated planning
meetings, concerns were expressed regarding the viability planning,
evaluating, and incorporating lessons learned in the annual national level
exercise.

FEMA officials stated that for NLE 2009, planners recognized that
TOPOFF 4 and previous national level exercises focused almost
exclusively on response operations and law enforcement, with insufficient
emphasis placed on prevention and intelligence activities. Therefore,
incorporating corrective actions into subsequent exercises may not be
relevant in most cases since they do not want to test the same capabilities
each year. FEMA officials concluded that it would be more beneficial to
alternate the type of threat each year to incorporate pre- and post-incident
exercises. As a result, this would better ensure that each of the homeland
security mission areas was tested over time.

In preparation for NLE 2009, exercise planners agreed that a primary area
of concern should be securing the southwest border and preventing
terrorists from entering and attacking the United States. Because of these
priorities, NLE 2009 focused exclusively on terrorism prevention and
protection, as opposed to incident response and recovery, which resulted
in different issues and objectives between TOPOFF 4 and NLE 2009.
Exercise planners concluded that NLE 2009, as a prevention-focused
exercise, would continue to accomplish national preparedness goals and
objectives because of the emphasis placed on intelligence and information
sharing that occurs in all national level exercises.

NLE 2009 was the first major exercise exclusively dedicated to terrorism
prevention and protection. Specifically, this exercise focused on
preventing an adversary’s entry into the country through air, border, and
maritime security and protecting various infrastructures and information
through various alert and notification systems. Unlike past national level
exercises, NLE 2009 did not have an incident response and recovery
component, but highlighted intelligence and information sharing.

During the planning process for NLE 2009, FEMA officials reviewed past
exercise improvement plans to determine (1) specific deficiencies
requiring further examination, and (2) compatibility with the overall
terrorism prevention focus for NLE 2009. TOPOFF 4 exercise simulated
a bomb explosion that involved responding to radiological dispersal
device attacks. The TOPOFF 4 Improvement Plan identified 54 corrective
actions, of which 12 pertained to radiological events, 19 pertained to


  FEMA’s Implementation of Recommendations from Top Officials 4 


                             Page 5

recovery, 12 pertained to response, one was considered outside of
TOPOFF 4’s scope, and ten pertained to terrorism and prevention
protection.

The TOPOFF 4 corrective actions incorporated into NLE 2009 were
identified during the exercise planning phase as actions to be validated
during the functional prevention exercise. The corrective actions include
Emergency Operations Center management, on-site incident management,
and public information and warning. The TOPOFF 4 corrective actions
incorporated into NLE 2009 are listed below.

1.	 Incorporate national scenario-based guidance into regional planning,
    training, and exercise programs such as the Regional Interagency
    Steering Committee (RISC) or the Regional Assistance Committee
    (RAC).

2.	 Consider the use of virtual tools (such as web conferencing and chat
    rooms) to supplement National Incident Communications Conference
    Line (NICCL) calls.

3.	 Evaluate smart practices and suggestions on information management
    identified in the After Action Report (AAR).

4.	 Investigate information technology solutions that support e-mail
    distribution lists that can be easily modified.

5.	 Consider mechanisms to promote cross-jurisdictional coordination by
    public affairs officials.

6.	 Develop and promulgate written Strategic Communication Planning
    guidance; establish and exercise interagency strategic communication
    team to address national themes, effects, tasks, international
    engagement strategy, and processes and procedures.

7.	 Review and align meeting and reporting schedules.

8.	 Consider scope, attendance, and classification level of senior
    leadership meetings, as well as procedures for capturing and
    disseminating discussions, decisions, and taskings.

9.	 Review and update policy documents to clarify the purpose, roles, and
    responsibilities for various private sector nongovernmental
    organizations (NGO).




  FEMA’s Implementation of Recommendations from Top Officials 4 


                             Page 6

10. Articulate and institutionalize a process for private sector and NGO
    engagement in national-level exercises, including authority for
    planning, programming, and budgeting for national and venue working
    groups.

FEMA officials provided the following rationale for TOPOFF 4 corrective
actions that were incorporated in NLE 2009:

Corrective Action 1

This corrective action relates to the On-Site Incident Management
capability. This capability provides the means to accomplish a mission
and achieve desired outcomes by performing critical tasks, under specified
conditions, to target levels of performance.

Corrective Actions 2, 3, 4, 5 and 6

Although the focus of NLE 2009 was intelligence and information
sharing, the exercise provided an opportunity to validate TOPOFF 4
corrective actions related to Public Information and Warning.
Specifically, the exercise included interagency communication protocols
to ensure that accurate and credible law enforcement and intelligence
information was provided to the public. Electronic message transmissions
and scheduled teleconferences among national, state, local and private
sector participants facilitated information exchange. In addition, virtual
tools, such as web conferencing and chat rooms, were a primary source of
communication throughout the exercise.

Corrective Actions 7 and 8

These corrective actions relate to the Emergency Operations Center
Management capability, and were incorporated in both the planning and
conduct of NLE 2009. The DHS Secretary, White House staff, and other
senior federal leaders participated in the exercise and related discussions.

Corrective Actions 9 and 10

These corrective actions relate to the Emergency Operations Center
Management capability. Non-government agencies, as well as critical
infrastructure facilities, participated in NLE 2009, with the National Joint
Information Center serving as a focal point for coordinated and timely
release of incident-related information to the public and media.

All TOPOFF 4 corrective actions were not incorporated into NLE 2009
since FEMA officials concluded that it is beneficial to alternate the type of


  FEMA’s Implementation of Recommendations from Top Officials 4 


                             Page 7

      threats and related capabilities that are exercised. However, FEMA
      officials said that other federal departments and agencies have planned or
      conducted exercises related to corrective action scenarios from TOPOFF
      4, as described in the following examples:

      •	 The Department of Energy sponsored Empire 09, a three phase
         exercise which focused on a radiological dispersal device detonation in
         an urban environment. This provided an opportunity for response
         agencies to focus on Federal Radiological Monitoring and Assessment
         Center integration, responsibilities, and reporting.

      •	 The Environmental Protection Agency sponsored Liberty RadEX
         2010, which focused on long-term recovery from a radiological
         dispersal device detonation. This exercise provided an opportunity for
         participants to focus on recovery issues.


Barriers Exist That Hinder the Effectiveness of a Corrective
Action Program
      A major component of exercise evaluation is the After Action Conference
      which provides an opportunity for entities that participated in an exercise
      to exchange feedback and make necessary changes to an After Action
      Report/Improvement Plan. As part of the After Action Conference,
      corrective actions are assigned to a responsible person or agency.

      The NEP Implementation Plan requires the establishment of a corrective
      action program, administered by DHS, to provide a government-wide
      process for identifying, assigning, and tracking remediation of interagency
      issues identified through exercises. Specifically, each participating
      department and agency is required to maintain a system for (1) identifying
      issues to be remedied, (2) making assignments to resolve the issues, and
      (3) tracking progress on issue resolution. The NEP Implementation Plan
      further requires that departments and agencies identify points of contact
      (POC) to oversee the implementation of corrective action plans, and
      update the CAP System on progress made towards implementing
      corrective actions.

      FEMA’s CAP System enables federal entities to access and track
      improvement plans from a single location, and ensures that lessons from
      exercises are either sustained or improved, as appropriate. However, we
      identified challenges that reduce the effectiveness of the CAP process.




        FEMA’s Implementation of Recommendations from Top Officials 4 


                                   Page 8

Even though each participating agency or department is responsible for
tracking and implementing corrective actions, we determined that not all
agencies and departments that participated in national level exercises have
assigned a POC to oversee corrective action implementation, and update
the CAP System. FEMA managers explained that more emphasis was
placed on the actual operation of the exercises, and less emphasis on
corrective actions needed to resolve consequence management issues
identified during the exercises. FEMA officials added that even when a
POC is assigned to monitor corrective actions, if that person leaves the
department or agency, a replacement POC is often not assigned to follow
through on corrective actions.

FEMA is responsible for inputting initial corrective action data from
national level exercises into the CAP System. However, tracking and
implementing these corrective actions rests exclusively within the
discretion of each participating agency or department, with FEMA having
no enforcement authority. In addition, we identified no explicit statutory
or executive authority that directs federal agencies to comply with
corrective action implementation requirements outlined under the NEP
Implementation Plan.

A common framework for corrective action follow-up is necessary to
ensure lessons from exercises are either sustained or improved, as
appropriate. In the absence of statutory or executive requirements for
participation in a corrective action process by all national level exercise
participants, there is reduced assurance that needed improvements
identified during exercises will be monitored, tracked, and implemented,
as appropriate.

Recommendation

       We recommend that the Director, Office of Policy and Program
       Analysis:

       Recommendation #1: Develop and implement reporting
       regulations for federal departments and agencies to assign POCs to
       oversee corrective action implementation, and update the CAP
       System on a consistent basis. This may require collaboration with
       the Exercise and Evaluation Sub-Interagency Policy Committee
       and the NEP Executive Steering Committee.




  FEMA’s Implementation of Recommendations from Top Officials 4 


                             Page 9
                                          

Management Comments and OIG Analysis
      We evaluated FEMA’s written comments and have made changes to
      the report where we deemed appropriate. Below is FEMA’s written
      response to our recommendation and our analysis of the response. A
      copy of FEMA’s response, in its entirety, appears in Appendix B.

      FEMA Response: With regard to the recommendation, we concur
      with the importance of an oversight system and collaborative
      efforts to include the Exercise and Evaluation Sub-Interagency
      Policy Committee. We do not concur that development and
      implementation should be promulgated through a federal
      regulation, but suggest that FEMA work collaboratively with the
      White House to develop a mechanism, such as a White House
      Directive, to strengthen the process of the corrective action
      progress to include (1) making assignments to resolve issues, (2)
      tracking progress on issues resolution, and (3) identifying POCs to
      oversee the implementation of corrective action plans. As a side
      note, we are making strides regarding incorporating corrective
      actions into National Exercise Program objectives. We believe the
      revision of the National Exercise Program (currently underway)
      will standardize exercise doctrine and the corrective action process
      and strengthen the good conduct of departments and agencies
      participating in the National Exercise Program.

      OIG Evaluation: As an alternative to our recommendation for
      corrective action oversight through federal regulation, we accept
      FEMA’s suggestion to collaborate with the White House in
      developing a mechanism to strengthen corrective action progress.
      The recommendation will remain unresolved and open pending
      our receipt and review of the specific mechanism that will be
      developed to satisfy the intent of this recommendation.




 FEMA’s Implementation of Recommendations from Top Officials 4 


                            Page 10
                                         

Appendix A
Purpose, Scope, and Methodology


                    House Report 110-862, Department of Homeland Security
                    Appropriations Bill, 2009, requires that we review changes made
                    by the Federal Emergency Management Agency as a result of
                    problems identified through TOPOFF 4, and make
                    recommendations for any further improvements that may be
                    needed. Pursuant to this requirement, we determined how the
                    corrective actions identified in the TOPOFF 4 exercise series were
                    incorporated into the planning and execution of NLE 2009.

                    We observed NLE 2009 activities from July 27 through July 31,
                    2009, and attended the After Action Conference in February 2010.
                    An overview of NLE 2009 results were incorporated into an After
                    Action Report. FEMA officials provided us with a draft of this
                    report in February 2010. As such, we continued our fieldwork
                    from March to May 2010, and interviewed FEMA top officials
                    responsible for the design and execution of national level
                    exercises. We analyzed relevant laws, policy documents, and
                    records concerning the evolution and ongoing priorities of these
                    exercises.

                    This review was conducted under the authority of the Inspector
                    General Act of 1978, as amended, and according to the Quality
                    Standards for Inspections, issued by the Council of the Inspectors
                    General on Integrity and Efficiency.




               FEMA’s Implementation of Recommendations from Top Officials 4 


                                          Page 11
 

Appendix B
Management Comments to the Draft Report


                                                                                  l_'" 1   "-...   "Ilm_,,~ S«w'~)'
                                                                                  _{         5"
                                                                                  "·"",...-OC'lOln


                                                                     ~~FEMA
                                                                        "0"'




                                              SEP      1 20lI




          MEMORANDUM FOR:               Carlton I. MIlM
                                        Assist:,"t Ill5peaor Go:n..",.1 _ Inspections
                                        Office of Inspector General

          FROM:                         David J. KaufmanfJ'f.--
                                        Director
                                        Offiec of Poliq and Pro;ram Analysis

          SUBJECT:                      Commen15 on OIG Draft Rcpon, FE-AlA's ImplcmCnlOlion
                                        ofRCCJOmmc"da/lonsfrom Top Officials 4

          Thank you for the opportunity to re,·icw and comment on thc Office of Inspector
          Go:ncral's (OIG's) 5ubje<;1 draft audit report. Asttt<: Federal Emt....l.ocncy Management
          AgCl1cy (FEMA) works toward refining its programs, ttt<: OIG's independent analysis of
          program perfonnanec greatly benefits our ability to continlKlusly improve our activities.

          We find the report properly identifics barriers that hinder the em.'Ct;"encss of the C\lrTent
          Concclive Action Program with regard to National Lc,·cl E"creiSC$ (Nl..Es). In addition
          to providing comments on thc findings and recommendation. wc would like to clarify one
          area r"garding the corrective :.etions rclated to NLE 09. The 10 cotTttti,'c actions wt.-re
          nOI radiological incident rcslX>nsc aClions as indicated in the report. but rather thcse
          correcti,'c aClions wt.'I"C idcntified during thc NLE 09 planning phase as actions to be
          validated during the functional prevention c"ereise. These includc Emergcncy Operations
          Ccnter (EOC) managelllcm. on_sile incidcnt management. and public infomllltion and
          warning. In addition. we find the subtitlc of the Results i1\ Rcvicw sc<:tio1\ docs not
          aecurntcly reflect the summary oontcms and rc<.:ollllllend the subtitle be ch:mged from ,1I/
          TOPOPF 4 Concc/in: Actio".' Were Not f"c0"lXJ/"Olelllmo Nt!:: }()O'lto ,11/ TOPOFF 4
          COffcCti"c Actiolls Were No/ Rele,","'/ fOf Nt!:: }()(W Finally. we would recommend a
          footnote be addcd to the section pertaining to homeland st.-curity missiun areas (page 2) to
          indicate thai since TOPOFF 4 and NLE 09. a fitlh mission urea _mitigation - hns bt.'C1\
          added.




                  FEMA’s Implementation of Recommendations from Top Officials 4 


                                                    Page 12
 

Appendix B
Management Comments to the Draft Report




          Page 2


          With regard to the recommendation, we concur with the importance of an oversight
          system and collaborative efforts to include the Exercise and Evaluation Sub-Interagency
          Policy Committee. We do not concur that development and implementation should be
          promulgated through a federal regulation, but suggest that FEMA work collaboTatively
          with the White House to develop a mechanism, such as a White House Directive, to
          strengthen the process of the corrective aClion progress to include (I) making
          assignments to resolve issues, (2) tracking progress on issues resolution, and (3)
          identifying points of contacts (POCs) to oversee the implementation of corrective action
          plans. As a side nole, we are making strides regarding incorporating corrective actions
          into National Exercise Program objectives. We believe the revision of the National
          Exercise Program, which is currently underway, will standardize exercise doctrine and
          the corrective action process and strengthen the good conduct of department and agencies
          participating in the National Exercise Program.

          Thank you again for the opportunity to comment on this draft report and we look forward
          to working with you on other issues as we both strive to improve FEMA.




                   FEMA’s Implementation of Recommendations from Top Officials 4 


                                                  Page 13
                                           

Appendix C
Major Contributors


                     Deborah Outten-Mills, Chief Inspector
                     Jacqueline Simms, Senior Inspector




               FEMA’s Implementation of Recommendations from Top Officials 4 


                                          Page 14
 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Policy
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Administrator, FEMA
                      DHS Audit Liaison
                      FEMA Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                FEMA’s Implementation of Recommendations from Top Officials 4 


                                           Page 15
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
